..,.,. SII.VlC'l"lI'




i~l-                   DEPARTMENT OF HEALm & HUMAN SERVICES                                            Office of Inspector General

                                                                                                       Office of Audit Services
                                                                                                       1100 Commerce, Room 632
                                                                                                       Dallas, TX 75242




                   Report Number: A-06-08.:.00041                                           December 1, 2008

                   Mr. Jimmy Chaney
                   Director of Medical Claims
                   TriSpan Health Services
                   1064 Flynt Drive
                   Flowood, Mississippi 39232-9750

                   Dear Mr. Chaney:

                   Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                   General (OIG), final report entitled "Review of High-Dollar Payments for Medicare Part A
                   Outpatient Claims Processed by TriSpan Health Services for the Period January 1 Through
                   December 31, 2004." We will forward a copy of this report to the HHS action official noted on
                   the following page for review and any action deemed necessary.

                   The HHS action offic'ial will make final determination as to actions taken on all matters reported.
                   We request that you respond to this official within 30 days from the date of this letter. Your
                   response should present any comments or additional information that you believe may have a
                   bearlng on the final determination.

                   Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
                   Public Law 104-231, OIG reports generally are made available to the public to the extent the
                   information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
                   will be posted on the Internet at http://oig.hhs.gov.

                   If you have any questions or comments about this report, please do not hesitate to call me at
                   (214) 767-8414, or contact Trish Wheeler, Audit Manager, at (214) 767-6325 or through e-mail
                   at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-08-00041 in all
                   correspondence.

                                                                 Sincerely,


                                                                Jj01cUwt ~. )~
                                                                 Gordon L. Sato
                                                                 Regional Inspector General
                                                                  for Audit Services


                   Enciosure
Page 2 - Mr. Jimmy Chaney


Direct Reply to HHS Action Official:

Ms. Nan Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
            th         \
601 East 12 Street, Rooin 235
Kansas City, Missouri 64106
rokcmora@cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF HIGH-DOLLAR 

PAYMENTS FOR MEDICARE PART 

   A OUTPATIENT CLAIMS 

   PROCESSED BY TRISPAN 

  HEALTH SERVICES FOR THE 

 PERIOD JANUARY 1 THROUGH 

     DECEMBER 31, 2004 





                    Daniel R. Levinson

                     Inspector General 


                      December 2008

                      A-06-08-00041

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 



BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. The intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File to process claims. The Common Working File can detect
certain improper payments during prepayment validation.

Medicare guidance requires providers to bill accurately and to report units of service as the
number of times that the service or procedure was performed.

TriSpan Health Services (TriSpan) is a Medicare Part A fiscal intermediary serving more than
1,800 Medicare providers in Mississippi, Louisiana, and Missouri. For calendar year (CY) 2004,
TriSpan processed approximately 3.7 million outpatient claims, 20 of which resulted in payments
of $50,000 or more (high-dollar payments). Sixteen of those claims were from providers in
Missouri.

On September 5, 2007, CMS awarded Wisconsin Physicians Service Insurance Corporation
(WPS) the contract for the combined administration of Part A and Part B Medicare fee-for-
service claims in Jurisdiction 5, which includes the states of Iowa, Kansas, Missouri, and
Nebraska. As a result, WPS became responsible for Missouri. Therefore, this report will include
only 4 of the 20 claims; we will report the remaining 16 claims to WPS.

OBJECTIVE

Our objective was to determine whether the high-dollar Medicare payments that TriSpan made to
providers for outpatient services were appropriate.

SUMMARY OF FINDINGS

Of the four high-dollar payments that TriSpan made to providers, one was appropriate. TriSpan
overpaid providers for three claims, resulting in overpayments totaling $203,478. Contrary to
Federal guidance, the providers inappropriately overstated the units of service in each of the
three high-dollar claims for procedure codes Q0136 and J9293. TriSpan made the overpayments
because neither the Fiscal Intermediary Standard System nor the Common Working File had
sufficient edits in place in CY 2004 to detect billing errors related to units of service.




                                                 i
RECOMMENDATIONS

We recommend that TriSpan:

   •	 review claims under $50,000 that bill the procedure codes identified in this report and
      correct any claims found in error and

   •	 use the results of this audit in its provider education activities.

TRISPAN HEALTH SERVICES COMMENTS

In its comments on our draft report, TriSpan agreed with our findings and second
recommendation and partially agreed with our first recommendation. The full text of TriSpan’s
comments is included as the Appendix.




                                                  ii
                                                   TABLE OF CONTENTS 


                                                                                                                                 Page       


INTRODUCTION................................................................................................................1 


     BACKGROUND .............................................................................................................1 

       Medicare Fiscal Intermediaries..................................................................................1 

       Claims for Outpatient Services ..................................................................................1 

       TriSpan Health Services ............................................................................................1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

       Objective ...................................................................................................................2 

       Scope..........................................................................................................................2 

       Methodology ..............................................................................................................2 


FINDINGS AND RECOMMENDATIONS ......................................................................2 


     FEDERAL REQUIREMENTS........................................................................................3 


     INAPPROPRIATE HIGH-DOLLAR PAYMENTS .......................................................3 


     CAUSES OF OVERPAYMENTS...................................................................................3 


     FISCAL INTERMEDIARY PREPAYMENT EDIT.......................................................4 


     RECOMMENDATIONS.................................................................................................4 


     TRISPAN HEALTH SERVICES COMMENTS ............................................................4 


APPENDIX

     TRISPAN HEALTH SERVICES COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare Part
B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that intermediaries must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments.

To process providers’ outpatient claims, the intermediaries use the Fiscal Intermediary Standard
System and CMS’s Common Working File. The Common Working File can detect certain
improper payments when processing claims for prepayment validation.

In calendar year (CY) 2004, fiscal intermediaries processed and paid more than 136 million
outpatient claims, 588 of which resulted in payments of $50,000 or more (high-dollar payments).
We considered such claims to be at high risk for overpayment.

Claims for Outpatient Services

Providers generate the claims for outpatient services provided to Medicare beneficiaries.
Medicare guidance requires providers to bill accurately and to report units of service as the
number of times that the service or procedure was performed.

TriSpan Health Services

TriSpan Health Services (TriSpan) is a Medicare Part A fiscal intermediary serving more than
1,800 Medicare providers in Mississippi, Louisiana, and Missouri. For claims in CY 2004,
TriSpan processed approximately 3.7 million outpatient claims, 20 of which resulted in payments
of $50,000 or more (high-dollar payments). Sixteen of the claims were from providers in
Missouri.

On September 5, 2007, CMS awarded Wisconsin Physicians Service Insurance Corporation
(WPS) the contract for the combined administration of Part A and Part B Medicare fee-for-
service claims in Jurisdiction 5, which includes the states of Iowa, Kansas, Missouri, and
Nebraska. As a result, WPS became responsible for Missouri. Therefore, this report will include
only 4 of the 20 claims; we will report the remaining 16 claims to WPS.




                                                 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the high-dollar Medicare payments that TriSpan made to
providers for outpatient services were appropriate.

Scope

We reviewed the four high-dollar payments for outpatient claims that TriSpan processed for
Mississippi and Louisiana providers. We limited our review of TriSpan’s internal controls to
those applicable to the four payments because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review allowed us to
establish a reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws and regulations;

   •	 used CMS’s National Claims History file to identify Medicare outpatient claims with
      high-dollar payments;

   •	 reviewed available Common Working File claim histories for claims with high-dollar
      payments to determine whether the claims had been canceled and superseded by revised
      claims or whether the payments remained outstanding at the time of our audit;

   •	 contacted the providers that received the high-dollar payments to determine whether the
      information on the claims was correct and, if not, why the claims were incorrect and
      whether the providers agreed that refunds were appropriate; and

   •	 coordinated our review with TriSpan.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the four high-dollar payments that TriSpan made to providers, one was appropriate. TriSpan
overpaid providers for three claims, resulting in overpayments totaling $203,478. Contrary to
Federal guidance, the providers inappropriately overstated the units of service in each of the


                                               2

three high-dollar claims. TriSpan made the overpayments because neither the Fiscal
Intermediary Standard System nor the Common Working File had sufficient edits in place in CY
2004 to detect billing errors related to units of service.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using coding from the Healthcare Common
Procedure Coding System. CMS’s “Medicare Claims Processing Manual,” Publication No. 100-
04, chapter 4, section 20.4, states that the number of service units “is the number of times the
service or procedure being reported was performed.” In addition, chapter 1, section 80.3.2.2, of
the manual states: “To be processed correctly and promptly, a bill must be completed
accurately.”

Section 3700 of the “Medicare Intermediary Manual” states: “It is essential that you [the fiscal
intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic data
processing systems to preclude increased program costs and erroneous and/or delayed
payments.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

TriSpan made three overpayments totaling $203,478 because two providers billed for excessive
units of service.

   •	 For two claims from one provider, the provider billed 6,000 units of service for 60 units
      delivered for each claim. The provider stated that procedure code Q0136 should have
      been billed as 1 unit per 1,000 units dispensed. As a result, TriSpan paid the provider
      $139,519 when it should have paid $1,247, an overpayment of $138,272. The provider
      refunded the overpayment on the claims during our audit.

   •	 For one claim, the provider billed procedure code J9293 for 200 units of service for 2
      units delivered but did not provide an explanation for the billing error. As a result,
      TriSpan paid the provider $65,928 when it should have paid $722, an overpayment of
      $65,206. The provider refunded the overpayment during our audit.

CAUSES OF OVERPAYMENTS

The providers agreed that overpayments had occurred and refunded the overpayment amounts.
One provider attributed the incorrect claim to its software edit programs, which did not detect
and prevent incorrect billing of units of service.

In addition, during CY 2004, TriSpan did not have prepayment or postpayment controls to
identify overpayments at the claim level, and the Common Working File prepayment editing
process lacked edits to detect and prevent excessive payments. In effect, CMS relied on



                                                3

providers to notify the intermediaries of excessive payments and on beneficiaries to review their
“Explanation of Medicare Benefits” and disclose any overpayments.1

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after the end of our audit period, CMS required intermediaries to implement
a Fiscal Intermediary Standard System edit to suspend potentially excessive Medicare payments
for prepayment review. The edit suspends high-dollar outpatient claims and requires
intermediaries to determine the legitimacy of the claims.

RECOMMENDATIONS

We recommend that TriSpan:

    •	 review claims under $50,000 that bill the procedure codes identified in this report and
       correct any claims found in error and

    •	 use the results of this audit in its provider education activities.

TRISPAN HEALTH SERVICES COMMENTS

In its comments on our draft report, TriSpan agreed with our findings and second
recommendation and partially agreed with our first recommendation. In response to the first
recommendation, TriSpan said that it plans to obtain a listing of the universe of claims from the
Fiscal Intermediary Standard System that meet the criteria described in the recommendation and
review a random sample of those claims to determine whether there are a significant number of
inappropriately billed claims. TriSpan stated that if the number is high, it will expand the scope
of its review to possibly include the entire universe of claims. We agree with TriSpan’s
proposal.

In response to the second recommendation, TriSpan said that it plans to publish frequently asked
questions on its Web site to educate its providers on the proper billing of units for HCPCS codes
Q0136 and J9293. TriSpan also said that it plans to include the information in any applicable
presentations or teleconferences it holds for providers.

The full text of TriSpan’s comments is included as the Appendix.




1
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the provider
files a claim for Part B service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         4

APPENDIX

                                                                                                      APPENDIX 

                                                                                                       Page 1 of 2 





                                                                   w\W.I.trispan.~ol11_

                                                                   P. O. Box 23046. Jackson, MS • 39225-3046




October 30, 2008



Mr. Gordon 1. Sato
Regional Inspector General for Audit Services
Office of Audit Services
1100 Commerce, Room 632
Dallas, TX 75242



Dear Mr. Sato:
                                                   ....,.

This letter· provides written comments froin.TriSpan Health Services, Inc/related to the Office of
Inspector General (OIG) draft report number A-06,08~00041,' entitl~d -"Review- 'of., High~Dollar
Payments for Medicare Part AOutpatierit Claims Processed by TriSpan Health Services for the Period
January 1 Through December 31, 2004."

For calendar year (CY) 2004, TriSpan processed approximately 3.7 million outpatient claims, 20 of
which resulted in payments of $50,000 or more (high-dollar payments). Only 4 of the 20 claims were
included in the report because 16 of the 20 claims were from Missouri providers which were
transitioned to Wisconsin Physicians Service Insurance Corporation (WPS) in May 2008.

The audit objective was to determine whether the high-dollar Medicare payments that TriSpan made to
hospitals for outpatient services were appropriate. The OIG contacted the hospitals that received the
high-dollar payments to determine whether the information on the claims was correct and, if not, why
the claims were incorrect and whether the hospitals agreed that refunds were appropriate.

Three of the four high-dollar payments that TriSpan made for outpatient services for CY 2004 were
not appropriate. The amount of the overpayment totaled $203,478... The providers inappropriately '.
overstated the units ofservice in each of the·three high:dollaLcIaims.TriSpan made the '9vetP~yments
because'neither tlie.Fiscal·lhtermediary StahdardSystem.fiOrthe Common'Working file had sufficient.
edits in place in CY 2004 to detect billing errors related to units of service.
                                                                                                        APPENDIX 

                                                                                                         Page 2 of 2 





TriSpan made three overpayments totaling $203,478 because two providers billed for excessive units
of service.

   •   For two claims from one provider, the provider billed 6,000 units of service for 60 units
       (HCPCS Q0136) delivered for each claim. The provider refunded the overpayment of
       $138,272 during the audit.

   •   For one claim, the provider billed 200 units of service for 2 units (HCPCS J9293) delivered.
       The provider refunded the overpayment of $65,206 during the audit.

In the OIG draft report, there were two recommendations:

    1) that TriSpan review claims under $50,000 that bill the procedure codes identified in this report
       (Q0136 and J9293) and correct any claims found in error and

   2) that TriSpan use the results of the audit in its provider education activities.

In response to the first recommendation, we plan to obtain a listing of the universe of claims from the
FISS that meet the criteria described in the recommendation. We will review a random sample of the
claims in the universe to determine if a significant number of inappropriately billed claims exist. If the
number is high, we will have to expand the scope of our review to possibly include the entire universe
of claims. Providers will be asked to submit adjustment claims to correct the incorrectly billed units of
service.

Tn response to the second recommendation, we plan to publish Frequently Asked Questions on our
Web site to educate our providers on the proper billing of units for HCPCS codes Q0136 and J9293.
We will also include this information in any applicable presentations or teleconferences held for bur
provider community during the fiscal year.

The standard system currently has edits in place to suspend high-dollar outpatient claims for review,
and there are some local edits in place for excessive units for services identified through data analysis
and Comprehensive Error Rate Testing (CERT) findings. TriSpan will continue to add local edits as
needed and educate providers on proper billing of units of service.

If you have any questions or comments regarding this letter, please feel free to call Jimmy Chaney at
(601) 664-4229.




M~
Jennifer Sumrall
Manager, Medicare Claims, Customer Service, Outreach and Education
TriSpan Health Services, Inc.
